No..

Su The
Supreme Court of the Anited States

ZACHARIAS CHRISTOPHER LEE,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct.

On this, the 16th day of April, 2021, Pursuant to (ORDER LIST: 589 U.S.) I
efiled the foregoing via Supreme Court of the United States — Electronic Filing
System and dispatched for filing; one (1) paper copy via UPS Ground Transportation.

I further certify, on this same day, one (1) PDF electronic copy of the same was
transmitted for e-service at the email addresses below:

Solicitor General of the United States

Department of Justice

950 Pennsylvania Avenue, NW, Room 5614

Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

RECEIVED
APR 20 2021

OFFICE OF THE CLERI
SUPREME COURT, us

   
     
      

Anthony J. Enright Amy E. Ray
OFFICE OF THE OFFICE OF THE

UNITED STATES ATTORNEY UNITED STATES ATTORNEY
Carillon Building United States Courthouse
227 West Trade Street, Suite 1650 100 Otis Street, Room 233
Charlotte, NC 28202 Asheville, NC 28801
(704) 344-6222 (828) 271-4661
usancw.appeals@usdoj.gov amy.ray@usdoj.gov

Counsel for Respondent Counsel for Respondent
Karen R. =o2 a

Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:

Denzil H. Forrester
Counsel of Record
THE LAW OFFICES
OF DENZIL H,. FORRESTER
8325 Washburn Avenue, Suite 103
Charlotte, NC 28205
(704) 632-9992 — Telephone
(704) 632-9969 — Facsimile
denzilfesq@aol.com

Counsel for Petitioner

Signed and subscribed before me on this 16th day of April, 2021.

dford E. Moo:
Notary

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia

Reg, #7241026
Commission Exp. 4/30/2021

 
